August 2, 2001

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT:	 Audit Report - Air Carrier Reliability
          (Report Number TR-AR-01-005)

This report presents the results of our audit of mail delays occurring at the Hartsfield
Atlanta International Airport, (Atlanta Airport) Atlanta, Georgia, (Project Number
01NA001TR000). The report responds to an anonymous complaint alleging that Delta
Airlines allowed large volumes of mail to back up for days.

Our audit confirmed the allegation. Specifically, we found that Delta Airlines allowed
over 600,000 pounds of First-Class Mail, Priority Mail, and Express Mail to remain at the
Atlanta Airport for up to 7 days beginning August 6, 2000, and continuing through
September 8, 2000. During this time, 8,113 flights to which mail had been assigned
departed from Atlanta with no mail onboard. Our audit also disclosed that while the mail
was backlogged at the Atlanta Airport, Delta Airlines did not provide the required
security over and protection of the mail.

We recommended Postal Service management establish a back-up plan that provides
for timely intervention and use of alternative mail transportation when the amount of
mail on-hand at the Atlanta Airport reaches unmanageable levels; assess damages, as
provided for in the Air Systems contract, when air carriers cause major disruptions in the
transportation of mail; and enforce applicable liquidated damages against air carriers
when they do not load mail that has been properly tendered or when they do not
properly protect the mail. Management agreed with our recommendations and the
actions taken or planned should correct the issues discussed in the report.
Management’s comments and our evaluation of their comments are included in the
report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have questions or need additional information, please contact Maria Longley, acting
director, Transportation at 312-601-3905, or me at (703) 248-2300.



Debra S. Ritt
Assistant Inspector General
 for Business Operations

Attachment

cc: John A. Rapp
    Anthony M. Pajunas
    J. Dwight Young

    John R. Gunnels

Air Carrier Reliability                                                 TR-AR-01-005




                                TABLE OF CONTENTS
Executive Summary
                                                          i

Part I


Introduction                                                               1


    Background                                                             1

    Objective, Scope, and Methodology                                      1

    Prior Audit Coverage                                                   2


Part II


Audit Results                                                              3


    Mail Condition                                                          3

      Backlog                                                               3

      Safeguarding and Protecting the Mail                                  7

       Damages                                                              8

    Corrective Actions Taken by Delta Airlines and the Postal Service      10

    Recommendations                                                        11

    Management’s Comments                                                  11

    Evaluation of Management’s Comments                                    11


Appendix. Management’s Comments                                            13





                                   Restricted Information
Air Carrier Reliability	                                                       TR-AR-01-005



                             EXECUTIVE SUMMARY
 Introduction              This report presents our findings regarding mail delays at
                           the Hartsfield Atlanta International Airport, (Atlanta Airport)
                           Atlanta, Georgia, between August 6 and September 8,
                           2000. The audit resulted from two anonymous complaints
                           on September 8, 2000, alleging that Delta Airlines allowed
                           mail to back up in large volumes for days at a time at the
                           Atlanta Airport. In addition to the anonymous complaints,
                           we were advised of the mail backlog during a meeting with
                           the manager of the Atlanta District on September 5, 2000, in
                           conjunction with a separate audit. The purpose of the audit
                           was to determine if the allegation of backlogged mail was
                           valid and to evaluate the actions taken by Delta Airlines and
                           the Postal Service to correct the problem.

 Results in Brief	         Delta Airlines allowed over 600,000 pounds of First-Class
                           Mail, Priority Mail, and Express Mail to remain at the Atlanta
                           Airport for up to 7 days beginning August 6, 2000, and
                           continuing through September 8, 2000. During this time,
                           8,113 flights, to which mail had been assigned, departed
                           from Atlanta with no mail onboard. The backlog of mail
                           occurred as a result of a reorganization by Delta Airlines of
                           its mail processing system that included the reassignment of
                           38 employees who had been dedicated to the movement of
                           mail at the Atlanta Airport. The Postal Service had no
                           formal back-up plan in place to use as an alternative means
                           of transportation when mail backlogs reached
                           unmanageable levels. In addition, the Postal Service was
                           not enforcing provisions of the Air Systems contract to
                           collect for damages resulting from the mail backlogs.
                           Although both Delta Airlines and the Postal Service
                           ultimately took action to correct the situation with the
                           backlog of mail, we concluded that the corrective actions
                           taken were not adequate considering that an even more
                           significant backlog occurred in November 2000.

                           Our audit also disclosed that while the mail was backlogged
                           at the Atlanta Airport, Delta Airlines did not provide the
                           required security over and protection of the mail. Some of
                           the mail got wet because mail carts were not properly
                           covered, and mail carts were parked in unsecured areas
                           with inadequate lighting. When mail is delayed or damaged,




                                              i
                                   Restricted Information
Air Carrier Reliability                                                       TR-AR-01-005




                          the reputation of the Postal Service suffers, which could
                          result in Postal Service customers using competitors for
                          some of its mail service.

 Summary of               To ensure the timely transportation and protection of the
 Recommendations          mail, we recommend the vice presidents of Purchasing and
                          Materials, and Network Operations Management,
                          (1) establish a back-up plan that provides for timely
                          intervention and use of alternative mail transportation when
                          the amount of mail on-hand at the Atlanta Airport reaches
                          unmanageable levels; (2) assess damages, as provided for
                          in the Air Systems contract, when air carriers cause major
                          disruptions in the transportation of the mail; and (3) enforce
                          applicable liquidated damages against air carriers when
                          they do not load mail that has been properly tendered or
                          when they do not properly protect the mail.

 Summary of               Management agreed with our recommendations. After
 Management’s             conducting a separate comprehensive review of Delta
 Comments                 Airlines operations at the Atlanta Airport, the Postal Service
                          has taken corrective actions to address the problems
                          identified. These actions include capping the transfer
                          volume of mail when circumstances cause a backlog or
                          unacceptable level of rollover mail. Management’s
                          comments, in their entirety, are included in the appendix of
                          this report.

 Evaluation of            Management’s comments are responsive to our findings
 Management’s             and recommendations. We believe that the actions, both
 Comments                 taken and planned, should correct the issues identified in
                          our report.




                                             ii
                                  Restricted Information
Air Carrier Reliability                                                       TR-AR-01-005



                                 INTRODUCTION
 Background               On September 8, 2000, the Office of Inspector General
                          (OIG) received two anonymous complaints alleging that
                          Delta Airlines had allowed mail tendered by the Postal
                          Service to back up in large volumes at the Hartsfield Atlanta
                          International Airport (Atlanta Airport). The complaints
                          alleged between 500,000 and 600,000 pounds of First-
                          Class Mail, Priority Mail, and Express Mail was staged on
                          the airport ramp, of which a major portion was delayed by
                          as much as 2 weeks. In addition to the complaints, the
                          Atlanta District manager advised us of the mail backlog
                          during a September 5, 2000, meeting on a separate audit of
                          External First-Class Scores.

                          On average, the Postal Service tenders approximately
                          189,500 pounds of mail to Delta Airlines each day at the
                          Atlanta Airport. In addition, Delta Airlines transfers
                          approximately 282,400 pounds between flights daily in
                          Atlanta.

                          During fiscal year (FY) 2000, the Postal Service paid Delta
                          Airlines more than $125 million to transport domestic mail.
                          Since Atlanta is the hub for Delta Airlines, a major portion of
                          the $125 million was for mail originating or destinating in
                          Atlanta, or transferring between flights in Atlanta.

 Objective, Scope, and    The objective of our audit was to evaluate the allegations of
 Methodology              backlogged mail and actions taken by Delta Airlines and the
                          Postal Service to correct the problem. To accomplish our
                          objective, we visited the Atlanta Airport, Atlanta Air Mail
                          Center, Delta Airlines Processing Center, and the Postal
                          Service Southeast Area office. To determine the extent to
                          which mail was backlogged at the Atlanta Airport, we
                          analyzed data reflecting the: (1) volume of mail on-hand at
                          the Atlanta Airport from August 6 through September 8,
                          2000, and (2) number of Delta Airlines flights originating in
                          Atlanta that had mail assigned, but no mail on-board for the
                          same time period. We interviewed both Postal Service and
                          Delta Airlines employees who were responsible for mail
                          operations at the Atlanta Airport, including the airmail center
                          and the Delta Airlines Processing Center. Postal Service
                          employees interviewed included the manager of Southeast
                          Area Distribution Network Operations, the acting plant




                                             1
                                  Restricted Information
Air Carrier Reliability                                                       TR-AR-01-005




                          manager for the Atlanta Air Mail Center, and a Southeast
                          Area office traffic management specialist. At Delta Airlines,
                          we interviewed the general manager, Postal Operations, the
                          system manager, Air Logistics Operations, and the system
                          manager, Air Logistics/Postal Operations.

                          To document our observations of the mail backlog at the
                          Atlanta Airport, we made a video of the conditions noted
                          during our visit on September 8, 2000. In addition to our
                          video, the Postal Service provided us a copy of a video they
                          had made on August 26, 2000, documenting the conditions
                          on that day. We used both videos to prepare a video report,
                          which will be issued separately.

                          This audit was conducted from September 2000 through
                          August 2001 in accordance with generally accepted
                          government auditing standards, and included such tests of
                          internal controls, as were considered necessary under the
                          circumstances. We discussed our conclusions and
                          observations with appropriate management officials and
                          have included their comments, where appropriate.

 Prior Audit Coverage     We did not identify any prior audits or reviews related to the
                          objectives of this audit.




                                             2
                                  Restricted Information
Air Carrier Reliability	                                                                            TR-AR-01-005



                                             AUDIT RESULTS
    Mail Condition	                 Our audit confirmed the allegations of backlogged mail at
                                    the Atlanta Airport. Specifically, Delta Airlines did not meet
                                    its obligations to timely transport and protect the mail, as
                                    required by the Air Systems contract.

    Backlog	                        The Air Systems contract prescribes the obligations of the
                                    airlines in providing air transportation for mail. Specifically,
                                    the contract requires airlines to offer sufficient resources to
                                    sort, transport, and load mail to specific flights assigned by
                                    the Postal Service. The contract also states that airlines
                                    shall deliver mail to the designated delivery point at the
                                    destination within the flight's scheduled arrival time, plus the
                                    number of minutes allowed for ground handling and buffer
                                    time.

                                    Despite these requirements, Delta Airlines allowed over
                                    600,000 pounds of mail to sit at the Atlanta Airport for up to
                                    7 days even though flights to which the mail were assigned
                                    departed with no mail onboard. The following graph shows
                                    the number of carts of mail tendered to Delta Airlines and
                                    still on-hand at the Atlanta Airport for each day between
                                    August 6, 2000, and September 8, 2000.1




1
    For comparison purposes, we showed the number of carts of mail on-hand as of 12:00 p.m. for each day shown.



                                                          3
                                               Restricted Information
TR-AR-01-005




                                                                                                                       9/8/00
                                                                                                                       9/7/00
                                                                                                                       9/6/00
                                                                                                                       9/5/00
                                                                                                                       9/4/00
                          CARTS OF MAIL ON-HAND AT THE ATLANTA AIRPORT




                                                                                                                       9/3/00
                                                                                                                       9/2/00
                                                                                                                       9/1/00
                                                                                                                       8/31/00
                                                                                                                       8/30/00
                                                                                                                       8/29/00
                                                                                                                       8/28/00
                                                                                                                       8/27/00




                                                                                                                                        Restricted Information
                                                                                                                       8/26/00
                                                                                                                       8/25/00
                                                                                                                       8/24/00
                                                                                                                       8/23/00




                                                                                                                                                   4

                                                                                                                       8/22/00
                                                                                                                       8/21/00
                                                                                                                       8/20/00
                                                                                                                       8/19/00
                                                                                N



                                                                                       D




                                                                                                 A
                                                                                o




                                                                                                 b
                                                                                       a

                                                                                       a



                                                                                                 v
                                                                                                 a



                                                                                                 a



                                                                                                 e
                                                                                                 i
                                                                                                 l



                                                                                                 l
                                                                                       t
                                                                                                                       8/18/00
                                                                                                                       8/17/00
                                                                                                                       8/16/00
                                                                                                                       8/15/00
                                                                                                                       8/14/00
                                                                                                                       8/13/00
                                                                                                                       8/12/00
                                                                                                                       8/11/00
                                                                                                                       8/10/00
                                                                                                                       8/9/00
Air Carrier Reliability




                                                                                                                       8/8/00
                                                                                                                       8/7/00
                                                                                                                       8/6/00




                                                                         700


                                                                               600


                                                                                     500


                                                                                           400


                                                                                                 300


                                                                                                       200


                                                                                                             100


                                                                                                                   0




                                                                                                                                 Date
                                                                                       Number of Carts
Air Carrier Reliability                                                                      TR-AR-01-005




                          This mail was staged at five locations around the airport.
                          The picture below shows about 250 carts of staged mail
                          which was gridlocked at the Atlanta Airport on August 26,
                          2000.




                          Picture 1 – Gridlocked conditions at Atlanta Airport on August 26, 2000.




                                                5
                                     Restricted Information
Air Carrier Reliability                                                                                                                                                        TR-AR-01-005




                                                        As shown in the graph below, during the 34-day period from
                                                        August 6, 2000, to September 8, 2000, 8,113 Delta Airlines
                                                        flights departed the Atlanta Airport with mail assigned, but
                                                        with no mail onboard.


                                      FLIGHTS DEPARTING THE ATLANTA AIRPORT
                                               WITH NO MAIL ONBOARD
                      400
   Number of Daily





                      350
      Flights





                      300
                      250
                      200
                      150
                      100
                            8/6/00

                                     8/8/00

                                              8/10/00

                                                        8/12/00

                                                                  8/14/00

                                                                            8/16/00

                                                                                      8/18/00

                                                                                                8/20/00

                                                                                                          8/22/00

                                                                                                                    8/24/00

                                                                                                                              8/26/00

                                                                                                                                        8/28/00

                                                                                                                                                  8/30/00

                                                                                                                                                            9/1/00

                                                                                                                                                                     9/3/00

                                                                                                                                                                              9/5/00

                                                                                                                                                                                       9/7/00
                            Date


                                                        Our audit also disclosed that Delta Airlines had no system in
                                                        place to ensure that the oldest mail on-hand was
                                                        transported first from the staging areas. Because of the
                                                        haphazard manner in which carts were placed in the staging
                                                        areas, there was no practical way for Delta Airlines to
                                                        retrieve the oldest mail first. Postal Service personnel told
                                                        us that this had been a problem for quite some time--long
                                                        before the backlog of mail that began on August 6, 2000.

                                                        In addition, we found that incoming mail destined for Atlanta
                                                        was staged with mail to be transferred to other departing
                                                        flights. Mail destined for Atlanta should have been taken
                                                        directly from the incoming flight to the Atlanta Air Mail
                                                        Center for processing, and not placed in the staging area.
                                                        We found many full carts of Atlanta mail that had been on-
                                                        site for as many as 3 days.

                                                        Delta Airlines representatives told us that this problem arose
                                                        in conjunction with their August 6, 2000, reorganization.




                                                                                       6
                                                                            Restricted Information
Air Carrier Reliability                                                                     TR-AR-01-005




                          They further said that with the return of dedicated personnel

                          to mail operations, this issue should be resolved.

                          Therefore, we are not providing a recommendation.


 Safeguarding and
        Our audit also disclosed that during the time the mail was
 Protecting the Mail
     accumulating to unmanageable levels at the Atlanta Airport,
                          Delta Airlines did not provide the required security over and
                          protection of the mail. Delta Airlines parked the carts in
                          unsecured areas of the airport, including one location where
                          the lighting was not adequate. Various personnel, including
                          other airline employees, had access to the mail in these
                          unsecured areas. We found no direct evidence that mail
                          had been taken, but found one piece of mail had been
                          opened. Although we did not find the packaging material,
                          we found a compact disc that was loose in one of the mail
                          carts. Further, because some mail carts were not properly
                          covered, mail was rain-soaked. As shown in the following
                          picture, the packaging of wet mail came apart in some
                          instances.




                          Picture 2 – Cart of mail was not properly covered, and rain damaged the mail.


                          The security problems resulted from Delta Airlines having to
                          use unsecured areas of the airport to stage mail because of
                          the huge volumes of mail on-hand. To address this
                          concern, Delta Airlines representatives told us that they are
                          now, to the degree possible, staging all mail in one area,
                          which should help eliminate security and lighting concerns.



                                               7
                                    Restricted Information
Air Carrier Reliability	                                                                          TR-AR-01-005



                                  They have space to stage up to 180 carts of mail at this one
                                  location. Additionally, Delta Airlines officials told us that
                                  since September 8, 2000, they purchased 80 new cart
                                  covers and ordered an additional 100 covers.

                                  While actions taken by Delta Airlines should improve
                                  security, additional backlogs of 850,000 pounds of mail in
                                  November 2000 indicate that additional actions are needed
                                  to correct the security problems identified.

    Damages
                      The Air Systems contract provides for liquidated damages
                                  when irregularities are identified. Specifically, the contract
                                  provides that the Postal Service may assess liquidated
                                  damages against a carrier under the following conditions.
                                  .
                                     •	 Failure to load at origin: $100 per flight, at origin
                                         airport, when the failure to load is due to the carrier
                                         exceeding the 200 pound allowance for other cargo.2

                                      •	 Failure to Protect: $100 per incident when the carrier
                                         fails to protect the mail from loss or damage.

                                  In addition, the Air Systems contract provides that the
                                  carrier shall be accountable and answerable in damages for
                                  the faithful performance of all obligations assumed under
                                  the contract.

                                  Postal Service representatives indicated that between
                                  August 6, and September 8, 2000, Postal Service ramp
                                  clerks prepared 347 irregularity reports citing violations for
                                  failure to load the mail. Of the 347 cases, liquidated
                                  damages were assessed in only 196 cases.3 Data was not
                                  readily available to determine if any of the 347 cases
                                  involved the 8,113 flights that departed with no mail
                                  onboard.

                                  Postal Service representatives stated that damages were
                                  not assessed on additional cases because ramp clerks were
                                  more concerned about working with Delta Airlines to get the
                                  mail moving than with preparing irregularity reports. They
                                  said that even though mail was clearly assigned to the
                                  8,113 flights, there is no way to verify, without the
2
 The Postal Service may approve other allowance limits for purposes of assessing liquidated damages.
3
 Liquidated damages were not assessed in the remaining 151 cases because the flights departed with no cargo
onboard. Thus, per the contract, liquidated damages were not applicable to the 151 cases.



                                                       8
                                            Restricted Information
Air Carrier Reliability                                                         TR-AR-01-005



                          irregularity reports, that mail assigned to specific flights had,
                          in fact, been tendered by the Postal Service to Delta Airlines
                          in a timely manner. Without such verification, it would be
                          impossible to collect liquidated damages after the fact.
                          They also pointed out that much of the 600,000 pounds of
                          mail on-hand was transfer mail, which is not subject to
                          liquidated damages.

                          Currently, the Postal Service has no methodology in place
                          to measure damages resulting from major disruptions in
                          mail transportation caused by the carriers, and, therefore, is
                          unable to penalize the carriers beyond the provision for
                          liquidated damages as specified above. We believe that
                          carriers should be held accountable for the significant
                          disruptions in service that they cause. Considering that the
                          Postal Service spends more than $776 million annually
                          under its Air Systems contract for domestic mail, liquidated
                          damages and other available penalties should be routinely
                          applied when air carriers fail to perform satisfactorily and in
                          accordance with the terms of the Air Systems contract.




                                             9
                                  Restricted Information
Air Carrier Reliability                                                       TR-AR-01-005




 Corrective Actions       After our initial visit on September 8, 2000, Delta Airlines
 Taken by Delta           took immediate action to process the backlog of mail at the
 Airlines and the         Atlanta Airport. Delta Airlines brought in additional staff on
 Postal Service           September 8, 2000, and by September 10, the backlog of
                          mail was gone.

                          Delta Airlines personnel told us that the backlog of mail
                          occurred in conjunction with a reorganization, effective
                          August 6, 2000, involving their mail processing system.
                          Ramp personnel previously dedicated to mail were
                          reassigned to other functions, leaving no staff dedicated
                          specifically to move the mail from one location of the airport
                          to another. As more mail arrived, Delta’s ability to quickly
                          process it became more difficult because of a shortage of
                          experienced, seasoned employees dedicated to moving
                          mail. Once Delta Airlines recognized that the reorganization
                          was ineffective, 38 experienced drivers, all of whom are
                          dedicated to the movement of mail, were returned to their
                          original positions. Delta Airlines representatives also told us
                          that they had hired an additional 50 employees in an effort
                          to ensure that the backlog of mail does not reoccur.

                          The acting plant manager of the Atlanta Air Mail Center told
                          us he gets concerned if the volume of mail on-hand at any
                          given time reaches 150 carts (approximately 150,000
                          pounds). At such time, he contacts Delta Airlines
                          representatives to express his concerns and to encourage
                          them to take the necessary actions to expedite movement of
                          the mail. The acting plant manager further stated he was in
                          constant contact with Delta Airlines representatives during
                          the time the mail was backlogged at the Atlanta Airport.

                          The manager of the Southeast Area Distribution Networks
                          Office told us that he became aware of the problem with the
                          backlog of mail as it occurred. He said that he has been
                          focusing on helping Delta Airlines improve its service for a
                          number of months, and that during meetings held with
                          airline representatives during the latter part of August, he
                          was assured that the problems with the backlog of mail
                          would be corrected. However, when he realized that the
                          situation was critical, he repossessed 240 carts of mail
                          during the week of August 28, 2000. As the mail was
                          repossessed, it was transported by truck. The manager of
                          the Southeast Area Distribution Networks Office further said



                                            10
                                  Restricted Information
Air Carrier Reliability                                                        TR-AR-01-005



                          that he is continuing to monitor the situation and is prepared
                          to take additional action if warranted.

                          Although the manager of the Southeast Area Distribution
                          Networks Office was monitoring the situation, we found that
                          the Postal Service had no formal back-up plan in place to
                          use an alternative means of transportation when mail
                          backlogs reached certain, predetermined levels.

                          After completing our initial fieldwork, we received additional
                          information from Postal Service employees about another
                          major problem with mail delays at the Atlanta Airport.
                          Specifically, from November 14, 2000, through
                          November 26, 2000, backlogged mail volumes again grew
                          to significant levels, reaching more than 850,000 pounds on
                          November 19, 2000. As a result, the Postal Service
                          repossessed 85,000 pounds and by November 27, 2000,
                          the mail volumes were back to normal.

                          Delta Airlines representatives told us that in February 2001
                          they made some managerial changes regarding their mail
                          operations at the Atlanta Airport in further efforts to correct
                          the problems with mail backlogs.

 Recommendation	          To ensure the timely transportation and protection of the
                          mail, we recommend the vice president of Purchasing and
                          Materials, and the vice president of Network Operations
                          Management:

                          1.	 Establish a back-up plan that provides for timely
                              intervention and use of alternative mail transportation
                              when the amount of mail on hand at the Atlanta Airport
                              reaches certain, predetermined levels.

 Management’s	            Management agreed with our recommendation. They
 Comments	                stated that they now have specific procedures in place that
                          allow for an embargo or cap of the transfer volume when
                          circumstances cause a backlog or unacceptable level of
                          rollover mail.

 Evaluation of            Management’s comments are responsive to our findings
 Management’s             and recommendations. We believe that the actions, both
 Comments                 taken and planned, should correct the issues identified in
                          the report.




                                            11
                                  Restricted Information
Air Carrier Reliability                                                      TR-AR-01-005




 Recommendation           2. Assess damages, as provided for in Section G.5 of the
                             Air Systems contract, when air carriers cause major
                             disruptions in the transportation of mail.

 Management’s             Management agreed with our recommendation. They
 Comments                 stated that they will take appropriate action to collect
                          damages as provided for in the in the Air Systems contract.

 Evaluation of            Management’s comments are responsive to our findings
 Management’s             and recommendations. We believe that the actions, both
 Comments                 taken and planned, should correct the issues identified in
                          the report.

 Recommendation           3. Enforce applicable liquidated damages against air
                             carriers when they fail to load mail that has been
                             properly tendered or when they fail to properly protect
                             the mail.

 Management’s             Management agreed with our recommendation. They said
 Comments                 that in the future liquidated damages will be assessed as
                          provided for in the contract.

 Evaluation of            Management’s comments are responsive to our findings
 Management’s             and recommendations. We believe that the actions, both
 Comments                 taken and planned, should correct the issues identified in
                          the report.




                                            12
                                  Restricted Information
Air Carrier Reliability                                      TR-AR-01-005



                          APPENDIX. MANAGEMENT’S COMMENTS




                                              13

                                    Restricted Information
Air Carrier Reliability                            TR-AR-01-005




                                    14

                          Restricted Information
